APPENDIX
TABLE OF CONTENTS
APPENDIX A: SC Court of Appeals Opinion filed January 15, 2020
APPENDIX B: Appellant's Petition for Rehearing with Suggestion for En Banc,
Filed by S.C. Ct. of Appeals on Jan. 28, 2020
APPENDIX C: South Carolina Court of Appeals Order, filed May 22, 2020
APPENDIX D: Appellant's Writ of Certiorari, filed June 23, 2020 in the Supreme
Ct. of South Carolina
APPENDIX E: Petitioner's reply to Respondent's Return to Petitioner's Petition for
a Writ of Certiorari, Filed on Aug. 3, 2020
APPENDIX F: The Supreme Court of South Carolina Order filed on May 28, 2021
APPENDIX G: Letter from Respondent to SC Court of Appeals filed by Ct on Nov.
27, 2017

A: SC Court of Appeals
Opinion filed January 15,
2020

i

THIS OPINION HAS NO PRECEDENTIAL VALUE. IT SHOULD NOT BE
CITED OR RELIED ON AS PRECEDENT IN ANY PROCEEDING
EXCEPT AS PROVIDED BY RULE 268(d)(2), SCACR.
THE STATE OF SOUTH CAROLINA
In The Court of Appeals
Sharon Brown, Appellant,
v.
Cherokee County School District, Respondent.
Appellate Case No. 2017-001466

Appeal From Cherokee County
J. Mark Hayes, II, Circuit Court Judge

Unpublished Opinion No. 2020-UP-013
Submitted December 2, 2019 - Filed January 15, 2020

AFFIRMED

Fletcher N. Smith, Jr., of Law Firm of Fletcher N. Smith,
Jr., LLC, of Greenville, for Appellant.
Andrea Eaton White, of White & Story, LLC, of
Columbia, for Respondent.

PER CURIAM: Sharon Brown appeals the circuit court's orders affirming the
Cherokee County School District Board of Trustees' (the Board's) decision to
terminate her employment with the Cherokee County School District (the District)
because she manifested an unfitness for teaching. On appeal, Brown raises

numerous issues, including whether (1) substantial evidence supported the Board's
finding she was unfit to teach; (2) the Board was fair and impartial; (3) her due
process rights were violated; (4) the charges brought by the District were moot
because the alleged victim stated Brown did not touch him; (5) the Board and
circuit court erred in not ruling that Brown, as a contract teacher, was not under
contract during the summer months and, therefore, had no duties or obligations to
the District during the summer months; and (6) the circuit court erred in ruling on
her appeal to it when the Board never filed the transcript of the teacher dismissal
hearing with the circuit court. We affirm.
L

FACTS

During the 2014-15 school year, the District employed Brown as a second grade
teacher at Luther Vaughn Elementary School (LVES). Beth Owens, another
second grade teacher at LVES, alleged that on Thursday, May 28, 2015, she and
her husband were walking down a hallway at LVES at 1:20 p.m. when she saw
Brown standing with a student pressed against the wall. Owens further alleged
when the student turned to look at her, Brown used her fingers to turn his head
back towards her. Owens reported this incident to Nanette Ruppe, the principal of
LVES at the time of the incident.1 Justin Kelly, the art teacher at LVES, alleged
that on May 28, 2015, he saw Brown put her hands on the chin of Student J, the
alleged victim; push Student J against the wall; and talk in an angry tone to Student
J. Kelly explained this incident happened while Brown was bringing her class to
his classroom for art around 1:10 or 1:15 p.m, and he saw the incident through a
crack in his doorway. The next day, May 29, 2015, Kelly reported this incident to
Ruppe and wrote a statement detailing the incident.
After receiving these two reports, Ruppe called Dr. Carpenter, the Director of
Human Resources for the District, to report the situation. Dr. Carpenter informed
the District Superintendent, Dr. Quincie Moore, about the incident, but they did not
report the incident to law enforcement. On the following Monday, June 1, 2015,
Dr. Carpenter met with Ruppe and Kelly. On the same day, Dr. Carpenter and
Ruppe met with Brown, who denied touching Student J. Dr. Carpenter told Brown
she was being placed on paid administrative leave and to not discuss the case or
have contact with students or other employees of the District.2 At the meeting,

On June 1,2015, Owens wrote a statement detailing the incident.
2 Although Ruppe stated Dr. Carpenter told Brown not to discuss the case with
anyone and Dr. Carpenter stated he told Brown not to talk to other District

Brown provided the names of Owens, Owens's husband, and Tracie Wilson, the
behavior assistant at LVES, as potential witnesses in the case. Brown also
provided a statement at this meeting. In her statement, Brown stated she heard
Student J use the phrase "I hate" as he walked to the art room, and after returning
to her classroom, she decided she needed to deal with the "I hate" statement, so she
went to the art room, asked to speak with Student J, and spoke to Student J outside
of the art room about the issue. Brown later wrote a second statement, responding
to Kelly's statement and denying forcibly touching Student J, shoving him against a
wall, and verbally assaulting him. Following the meeting with Brown, Dr.
Carpenter sent Brown a letter dated June 1, 2015, that was taken to the post office
on June 2, 2015. The letter stated, "you should not have any contact with school
district employees or students in any manner while you are on administrative
leave." Ruppe also met with Student J, who told her Brown did not touch him, and
Student J's mother reported that Student J told her Brown did not touch him.
Brown received a card in her mailbox notifying her of the certified letter from Dr.
Carpenter on June 10, 2015, and she picked it up from the post office on June 11,
2015. However, before Brown received the letter, she ran into Wilson at a Ross
clothing store on June 5, 2015. Wilson initiated a conversation with Brown by
saying "hello," and they had a conversation, including discussing the incident with
Student J. In particular, Wilson stated Brown told Wilson she provided Dr.
Carpenter Wilson's name as a witness to an incident between her and Student J; Dr.
Carpenter was going to call Wilson to talk about what happened between Brown
and Student J; and Brown described the incident, telling Wilson what she "was
supposed" to have seen. Wilson stated she did not know Dr. Carpenter was going
to call her, and she did not know about the incident with Student J until Brown told
her about it. She also did not know Brown was on administrative leave. Wilson

employees or students, Brown asserts she was not given either of these directives
at the meeting.
3 On June 1, 2015, Ruppe asked Wilson to give a statement about what happened
on May 28, 2015. In the statement, Wilson explained she went to Kelly's last
period art class that day, she arrived after Brown had already dropped off her
students and the class had already started, and Brown came to the classroom and
asked to see a student, whose name Wilson did not remember. Wilson stated Kelly
"said ok" and let the student leave the room, but she did not remember if the
student returned to class that day. She did not provide any information about the
incidents with Student J allegedly seen by Kelly and Owens.

stated Brown told her Brown was "not supposed to be talking to [her]" or
"discussing" the case with her. Brown, however, asserts when she spoke to
Wilson, she had not been told or at least did not recall having been told to not
discuss the case or not to talk to other District employees. On June 22, 2015,
Wilson told Ruppe about her conversation with Brown at Ross, and Ruppe told
Wilson to write a statement about the conversation with Brown to bring when she
met with Dr. Carpenter and Dr. Moore. Dr. Carpenter contacted Wilson on June
16, 2015, and Wilson met with Dr. Carpenter and Dr. Moore on June 29 or 30,
2015.
On July 31, 2015, Brown met with Dr. Carpenter and Dr. Moore. At the meeting
Brown again denied touching Student J, and Dr. Moore reported Brown gave her a
"completely different" version of the interaction with Wilson at Ross than the one
given by Wilson. In particular, Dr. Moore noted while Brown admitted she spoke
with Wilson at the store, she did not recall being told not to talk to District
employees by Dr. Carpenter at the June 1, 2015 meeting with him and Ruppe, and
she did not recall discussing this directive with Wilson. After meeting with
Brown, Dr. Moore concluded Kelly and Owens witnessed two separate interactions
between Student J and Brown: (1) Kelly witnessed Brown put her hands on
Student J before Kelly’s art class began, and (2) Owens witnessed Brown's
interaction with Student J when she went back to speak with Student J to "rectify
the situation" after the art class had already started. Dr. Moore also concluded
Brown admitted she spoke with Wilson after being given the directive from Dr.
Carpenter. Dr. Moore decided (1) Brown went against the directive given to her
by Dr. Carpenter to not speak to other District employees when she spoke to
Wilson; (2) Brown was dishonest because she denied touching a student, despite
Kelly's and Owen's testimony otherwise; and (3) by speaking to Wilson, Brown
intervened in the investigation of the incidents with Student J. Accordingly, Dr.
Moore recommended the District terminate Brown's contract.
On August 11, 2015, Dr. Moore notified Brown she was going to recommend the
Board terminate Brown’s teaching contract pursuant to the South Carolina Teacher
Employment and Dismissal Act (the Act),4 particularly section 59-25-430 of the
South Carolina Code (2019).5 In the letter, Dr. Moore specified she was
4 S.C. Code Ann. §§ 59-25-410 to -530 (2019).
5 Section 59-25-430 provides:
Any teacher may be dismissed at any time who shall fail,
or who may be incompetent, to give instruction in

recommending Brown be terminated because (1) Brown "willfully violate[d] a
school directive," given to her on June 1, 2015, by Dr. Carpenter; (2) Brown was
dishonest in her answers to Dr. Moore's questions regarding the May 28, 2015
incidents and the June 5, 2015 interaction with Wilson, and (3) "if [Brown] did
grab the student in a forceful or violent manner, that would serve as an additional
ground for [Brown's] immediate termination." In the letter, Dr. Moore specifically
mentioned Brown's conversation with Wilson at Ross, noting Brown admitted she
spoke to Wilson and asked if Wilson had spoken with Dr. Carpenter. The letter
also informed Wilson she could request an evidentiary hearing regarding her
termination within fifteen days of her receipt of the letter.
Brown requested a hearing on her termination, and on October 7, 2015, a hearing
was held. Prior to opening statements, the Board Chairwoman stated how the
hearing would proceed, including that "Board Members may examine all witnesses
and documents presented" by both the District and Brown. Kelly, Ruppe,
Carpenter, Owens, Wilson, and Dr. Moore all testified at the hearing on behalf of
the District, and Brown testified for herself.6 During the hearing, one of the Board
members, Robin Harper, interjected into Brown's cross-examination of the
District's witnesses on multiple occasions. In particular, Harper interjected into the
cross-examination of Wilson when Brown asked Wilson if she knew the name of
the child Brown asked to see during Kelly's art class on May 28, 2015. Wilson
replied she did not, but when asked if she remembered now, she stated she did. At
this point, Harper interjected, stating Wilson had testified she did not know who
the child was until she ran into Brown at Ross, and Brown told Wilson it was
Student J. Harper then asked Wilson, "Isn't that what you said," and Wilson
replied, "Right." Harper also interjected during Brown's cross-examination of Dr.
Moore when Brown questioned whether Dr. Moore had done a thorough
investigation of the case despite the fact that she had not interviewed Student J.
Harper stated, "And I want to know. Can you talk to a seven-year old?" Harper

accordance with the directions of the superintendent, or
who shall otherwise manifest an evident unfitness for

teaching; provided, however, that notice and an
opportunity shall be afforded for a hearing prior to any
dismissal.
6 Each of the witnesses provided testimony similar or identical to that found in
their original allegations and statements discussed above.

continued, clarifying she was not aware of whether a psychologist or an advocate
would need to be present when questioning a child.
Ultimately, on October 15, 2015, the Board unanimously voted to accept Dr.
Moore's recommendation that Brown's contract be terminated because Brown
manifested an unfitness for teaching by (1) having inappropriate interactions with a
student, (2) acting in insubordination to the directive given to her by the District to
not talk to other District employees during the investigation, and (3) being
dishonest when answering Dr. Moore's questions. On November 5, 2015, Brown
filed a notice of intent to appeal the Board's decision and an appeal brief. 7
On June 20, 2016, the circuit court held a hearing on Brown's appeal, and on
August 1, 2016, the circuit court filed an order upholding the Board's decision to
terminate Brown's teaching contract, finding:
While there is very little evidence [Brown] "violently"
grabbed the student or that she verbally "assaulted" the
student . . . [t]here is substantial evidence . . . [she] was
told not to have discussions about her suspension with
school personnel.... There is also substantial evidence
.. . that after [she] was told not to discuss the
investigation, [she] tried to influence another school
employee who was a potential witness in the
investigation. There was also substantial evidence that
[she] was dishonest in her responses about the
conversation with this witness.
The circuit court also noted substantial evidence supported the Board's decision
that the inappropriate interaction with Student J occurred, but it stated if this had
been the only reason to terminate Brown, then it may have found section
59-25-440 of the South Carolina Code (2019)8 required the District to take
7

Brown later filed two amended briefs, a memorandum in support of her second
amended brief, and another brief. Brown’s arguments in each of these documents
are substantially the same.
8
Section 59-25-440 provides:
Whenever a superior .. . finds it necessary to admonish a
teacher for a reason he believes may lead to ... dismissal
. . . he shall: (1) bring the matter in writing to the
attention of the teacher involved and make a reasonable

reasonable efforts to correct Brown's actions prior to dismissing her. Brown filed a
motion to reconsider, and the circuit court denied the motion. This appeal
followed.
II.

STANDARD OF REVIEW

"Judicial review of a school board decision terminating a teacher is limited to a
determination whether it is supported by substantial evidence. The court cannot
substitute its judgment for that of the school board." Felder v. Charleston Cty.
Sch. Dist., 327 S.C. 21, 25, 489 S.E.2d 191, 193 (1997); see also Laws v. Richland
Cty. Sch. Dist. No. 7, 270 S.C. 492, 495, 243 S.E.2d 192, 193 (1978) ("[T]he
standard by which the Board's decision is to be gauged [is] whether the grounds
given for termination of the respondent's employment are supported by 'substantial
evidence.'"). "'Substantial evidence' is not a mere scintilla of evidence nor the
evidence viewed blindly from one side of the case, but is evidence which,
considering the record as a whole, would allow reasonable minds to reach the
conclusion that the [Board] reached or must have reached in order to justify its
action." Laws, 270 S.C. at 495-96, 243 S.E.2d at 193. "Courts will not interfere
with the exercise of discretion by school boards in matters committed by law to
their judgment unless there is clear evidence that the board has acted corruptly, in
bad faith, or in clear abuse of its powers." Singleton v. Horry Cty. Sch. Dist., 289
S.C. 223, 227-28, 345 S.E.2d 751, 753 (Ct. App. 1986). "An appellate court will
not substitute its judgment for that of school boards in view of the powers,
functions[,] and discretion which must necessarily be vested in such boards if they
are to execute the duties imposed upon them." Id. at 228, 345 S.E.2d at 754. "[I]f
any of the charges against a teacher are supported by substantial evidence, the
school board's decision to dismiss must be sustained." McWhirter v. Cherokee Cty.
Sch. Dist. No. 7, 274 S.C. 66, 68, 261 S.E.2d 157, 158 (1979).

effort to assist the teacher to correct whatever appears to
be the cause of potential dismissal... and, (2)... allow
reasonable time for improvement.

III.

BROWN’S APPEAL
A. Brown’s Unfitness to Teach

Brown argues substantial evidence did not support a finding she was unfit to teach.
We disagree.
We find the circuit court did not err in affirming the Board's finding that Brown
was unfit to teach pursuant to section 59-25-430 on the ground that she was
dishonest to Dr. Moore. § 59-25-430 ("Any teacher may be dismissed at any time .
. . who shall otherwise manifest an evident unfitness for teaching .... Evident
unfitness for teaching is manifested by conduct such as, but not limited to . . .
dishonesty. . . ."). Dr. Moore testified she concluded Brown was dishonest to her
because she denied touching a student despite Kelly’s and Owen's assertions
otherwise, and she was dishonest when she stated she did not remember being
given a directive not to speak to other employees by Dr. Carpenter and denied
discussing this directive with Wilson. Although it is questionable whether
substantial evidence existed that Brown actually engaged in inappropriate
interactions with Student J—particularly given Student J’s statement that nothing
happened—substantial evidence supports that Brown was given the directive at the
meeting on June 1, 2015, and was aware of the directive during her conversation
with Wilson on June 5, 2015, given Ruppe's and Carpenter’s testimony that Brown
was told to either not discuss the case with anyone or to not talk to other District
employees and Wilson’s testimony that when she spoke to Brown about the
incident, Brown repeatedly told Wilson she was not supposed to be talking about
the case with Wilson. Thus, substantial evidence supports a finding that Brown
lied to Dr. Moore about her conversation with Wilson, and specifically, substantial
evidence supports that Brown lied when she stated she did not remember the
directive given to her by Dr. Carpenter on June 1, 2015, at the time of her
conversation with Wilson. Therefore, we believe the circuit court did not err in
affirming the Board on this ground for Brown's dismissal.
Because at least one ground for Brown's termination—Brown's dishonesty—was
supported by substantial evidence, the circuit court did not err in affirming the
Board's finding that Brown was unfit to teach pursuant to section 59-25-430, and
we need not discuss the remaining grounds for Brown's dismissal. See Me Whirter,
274 S.C. at 68, 261 S.E.2d at 158 (”[I]f any of the charges against a teacher are
supported by substantial evidence, the school board's decision to dismiss must be
sustained."); see also Futch v. McAllister Towing of Georgetown, Inc., 335 S.C.
598, 613, 518 S.E.2d 591, 598 (1999) (ruling an appellate court need not review
remaining issues when its determination of a prior issue is dispositive of the

appeal). Accordingly, we affirm the Board's determination that Brown was unfit to
teach pursuant to section 59-25-430.
B. Fair and Impartial Tribunal and Substantive Due Process
Brown argues the Board was not an impartial tribunal because (1) it had an
inherent bias against her due to a prior case between the Board and Brown that
ended with her reinstatement in late 2011; (2) Board member Harper's interjections
into Brown's cross-examinations of Dr. Moore and Wilson denied Brown the
opportunity for meaningful cross-examination; (3) another Board member closed
her eyes for part of the hearing; (4) it showed bias by failing to take Student J and
his mother at its word when they stated Brown did not touch Student J; (5) it
exceeded the scope of the reasons given by Dr. Moore for Brown's termination by
using Brown’s conversation with Wilson, which was not included in the letter from
Dr. Moore to Brown as a reason for her termination, as grounds for the
termination9; and (6) it used information received outside of the hearing in making
its decision. We disagree.
We find Brown did not provide sufficient evidence the Board was actually biased
against her. Felder, 327 S.C. at 26, 489 S.E.2d at 194 ("In order to disqualify a
hearing tribunal, actual bias rather than a mere potential for bias must be shown.");
Green v. Clarendon Cty. Sch. Dist. Three, 923 F. Supp. 829, 846 (D.S.C. 1996) ("It
is Plaintiffs burden to show the existence of bias, rather than its mere possibility,
and Plaintiff 'must overcome a presumption of honesty and integrity in those
serving as adjudicators."’ (quoting Withrow v. Larkin, 421 U.S. 35, 47 (1975))).
First, Brown failed to provide a sufficient record for this court to rule on the issues
of whether the Board had a bias against her based on her prior case against the
District in 2011 and whether a Board member demonstrated bias by closing her
eyes for part of the board hearing. See Harkins v. Greenville County, 340 S.C.
606, 616, 533 S.E.2d 886, 891 (2000) (stating the appellants have the burden of
providing this court an adequate record).
Next, Brown did not prove the Board was actually biased against her based on
Harper's inteijections during Brown's cross-examination of Dr. Moore and Wilson
or that she suffered any prejudice due to the interjections because (1) as stated at
the beginning of the hearing, Board members were permitted to "examine all

9 Although Brown raises the issue of notice here, she also raises it in her procedural
due process arguments, and we discuss the notice issue with the issue of whether
Brown was afforded procedural due process in Section III.C.

witnesses"; (2) Harper's interjection into Wilson's testimony only elicited
information about which Wilson had already testified—i.e. that she did not
remember which student Brown asked to speak to during Kelly's art class on May
28, 2015, until Brown told her it was Student J during their conversation at Ross—
and, thus, did not prejudice Brown; and (3) Harper's inteijection during Brown's
cross-examination of Dr. Moore to ask if you can "talk to a seven-year old child,"
appeared to be a genuine question regarding whether a psychologist or advocate
would have also needed to be present when one questioned a child, not a comment
on whether Student J's statements would have been believable. See Felder, 327
S.C. at 26, 489 S.E.2d at 193 ("Substantial prejudice is required to establish a
violation of due process."); id. at 26, 489 S.E.2d at 193-94 ("Further, school board
members are clothed with a presumption of honesty and integrity in the discharge
of their decision-making responsibilities."); id. at 26, 489 S.E.2d at 194 ("In order
to disqualify a hearing tribunal, actual bias rather than a mere potential for bias
must be shown.").
Additionally, Brown's argument the Board was biased because Student J did not
testify at the hearing is without merit because the Board does not call witnesses,
the parties do, and as such, Brown should have called Student J if she wished for
him to testify. See State v. Curtis, 356 S.C. 622, 632, 591 S.E.2d 600, 605 (2004)
("A party cannot complain of an error which his own conduct created."). Further,
as to Brown's argument the Board was biased because it did not believe Student J's
and his mother's statements that Brown did not touch him, we note the Board never
stated it did not believe Student J and his mother. Moreover, even if the Board did
not believe Student J and his mother, this is a credibility determination the Board
was allowed to make, and without more evidence, this credibility determination
does not demonstrate the Board was actually biased against Brown. See Felder,
327 S.C. at 26, 498 S.E.2d at 194 ("In order to disqualify a hearing tribunal, actual
bias rather than a mere potential for bias must be shown.").
Finally, as to Brown's arguments regarding the Board using ex parte
communications to reach its decision, this argument is without merit. While the
Board used slightly different wording than that used by the witnesses at the hearing
and may have attributed information to the wrong witness or witness statement, all
of the information contained within the Board's decision was testified to by
witnesses at the hearing or provided to the Board in the witnesses' statements.
Thus, as this evidence was provided at the hearing, it does not constitute ex parte
communications, and it does not indicate any actual bias against Brown on the part
of the Board. See Brown v. Bi—Lo, Inc., 354 S.C. 436, 440 n.3, 581 S.E.2d 836,
838 n.3 (2003) ("/E]x parte communication is defined as 'prohibited

communication between counsel and the court when opposing counsel is not
present.'" (quoting Black's Law Dictionary 597 (7th ed. 1999))).
Therefore, we find Brown failed to provide sufficient evidence the Board violated
her substantive due process rights by acting with actual bias against her. See
Withrow, 421 U.S. at 46 ("[A] 'fair trial in a fair tribunal is a basic requirement of
due process.'" (quoting In re Murchison, 349 U.S. 133, 136 (1955))); Felder, 327
S.C. at 26, 498 S.E.2d at 194 ("In order to disqualify a hearing tribunal, actual bias
rather than a mere potential for bias must be shown."); Green, 923 F. Supp. at 846
("It is Plaintiffs burden to show the existence of bias, rather than its mere
possibility, and Plaintiff 'must overcome a presumption of honesty and integrity in
those serving as adjudicators.'" (quoting Withrow, 421 U.S. at 47)). Accordingly,
we affirm as to this issue.
C. Procedural Due Process And Notice
Brown argues her due process rights were violated because the District did not
inform her of all of the reasons for the proposed cancellation of her teaching
contract—specifically, her conversation with Wilson—in a letter as required by
section 59-25-460 of the South Carolina Code (2019). We disagree.
First, we find Brown's procedural due process rights were not violated because the
District provided her notice of the reasons for her dismissal in the August 11, 2015
letter and provided her an opportunity for an evidentiary hearing. While the
August 11, 2015 letter did not specifically detail the contents of Wilson’s
statement, Brown was nonetheless put on notice of the proposed grounds for her
dismissal because Dr. Moore stated she was recommending that Brown's contract
be terminated because (1) Brown "willfully violate[d] a school directive" given to
her by Dr. Carpenter on June 1, 2015, to not speak with other District employees
during the investigation; (2) Brown was dishonest in her answers to Dr. Moore's
questions regarding the alleged incidents involving Student J on May 28, 2015, and
the June 5, 2015 interaction with Wilson; and (3) "if [Brown] did grab the student
in a forceful or violent manner, that would serve as an additional ground for
[Brown's] immediate termination." Furthermore, Dr. Moore mentioned Brown's
interaction with Wilson at Ross on multiple occasions in the letter. Thus, Brown
had notice of the import of her interaction with Wilson to the Board's decision of
whether to terminate her teaching contract, and she could have prepared a defense
as to this issue. Additionally, Brown's conversation with Wilson was not a
separate ground for tenninating Brown's contract; instead, it was incorporated into
the ground that Brown violated Dr. Carpenter's directive to not talk to other
District employees. Furthermore, the letter informed Brown of her right to request

an evidentiary hearing, which Brown did. Thus, we believe August 11, 2015 letter
satisfied the requirements of section 59-25-460. See § 59-25-460(A) ("A teacher
may not be dismissed unless written notice specifying the cause of dismissal first is
given to the teacher by the superintendent and the teacher is given an opportunity
for an evidentiary hearing."); McWhirter, 274 S.C. at 68, 261 S.E.2d at 158
(holding two letters sent to a principal "setting forth five fairly specific and
unambiguous reasons for his suspension and eventual dismissal" satisfied the Due
Process Clause and section 59-25-460).
Next, we note Brown's argument the August 11, 2015 letter stated her attorney was
present at the July 31, 2015 meeting when her attorney was not. However, this
argument is without merit because (1) while parties attending a meeting to discuss
potential reasons for a teacher's dismissal "must have the option of' having
representation present, actually having such representation is not required by
section 59-25-460; and (2) the presence of Brown's attorney at the July 31, 2015
meeting has no bearing on whether the District provided Brown notice of the
grounds for dismissal in the August 11, 2015 letter. See § 59-25-460(A) ("The
superintendent or his designee may meet with the teacher before issuing a notice of
dismissal to discuss alternative resolutions. The parties attending this meeting
must have the option of having a representative present.").
Finally, we also note Brown's argument the August 11, 2015 letter stated she,
Ruppe, and Dr. Carpenter discussed things that they did not, including Wilson's
statement and Owen’s allegations. Nonetheless, these issues do not effect whether
Brown’s procedural due process rights were violated because even if Brown did not
discuss this infonnation with Ruppe and Carpenter at the July 31, 2015 meeting,
such a meeting discussing the grounds for termination in person is not required by
section 59-25-460, and Brown was still provided this infonnation, along with
notice of the grounds for her termination, in the August 11, 2015 letter. See §
59-25-460(A) ("The superintendent or his designee may meet with the teacher
before issuing a notice of dismissal to discuss alternative resolutions." (emphasis
added)).
Therefore, we find the District provided notice to Brown of the grounds for her
termination as required by section 59-25-460 and, thus, did not violate her
procedural due process rights. Accordingly, we affirm as to this issue.
D. The District's Policies and Reporting of Child Abuse
Brown argues because teaching contracts incorporate state law and school district
policies and South Carolina law and the District's policies include a "mandatory

requirement for reporting of allegations of child abuse," the District violated both
state law and its own policies by not reporting the alleged incident between Student
J and Brown as child abuse.
This issue is without merit. First, we note the District states it did not ever believe
Brown's actions rose to the level of child abuse; thus, the District did not violate its
policies or state law by failing to report the alleged incident to the authorities.
Nonetheless, even if the District should have reported the incident, that bears no
relevance to the issue of the Board's decision in Brown's case. Accordingly, we
affirm as to this issue.
E. Mootness and the Grounds for Brown's Termination
Brown argues the case against her and the grounds for her termination were moot
at the time of the Board hearing because there was no controversy for the Board to
decide as Student J and his mother denied Brown ever touched Student J. We
disagree.
We find the grounds for termination brought against Brown were not moot.
Although Student J, his mother, and Brown all stated Brown never touched Student
J, Owens and Kelly both alleged they saw Brown touch Student J. Thus, there was
a "real and substantial" controversy for the Board to settle, and the Board's
determination of whether Brown was fit to teach would have a "practical legal
effect" because it would either result in Brown's teaching contract being terminated
or upheld. See Sloan v. Friends ofHunley, Inc., 369 S.C. 20, 25, 630 S.E.2d 474,
477 (2006) ("A justiciable controversy exists when there is a real and substantial
controversy which is appropriate for judicial determination, as distinguished from a
dispute that is contingent, hypothetical, or abstract."); id. at 26, 630 S.E.2d at 477
("A moot case exists where a judgment rendered by the court will have no practical
legal effect upon an existing controversy because an intervening event renders any
grant of effectual relief impossible for the reviewing court."). Accordingly, we
affirm as to this issue.
F. Transcript of the Board Hearing
Brown argues the District did not file a transcript of the Board hearing to the
circuit court as required by section 59-25-480 of the South Carolina Code (2019),
and without the transcript of the Board hearing, there was "a lack of substantial
evidence in the record to support" the Board's finding that Brown was unfit to
teach.

Although Brown states she was told by the Cherokee County Clerk of Court's
office that no transcript was filed in this case, the District has provided substantial
evidence it did file the transcript of the Board hearing. First, it attached a letter
from its counsel to the Cherokee County Clerk of Court's office to its return to
Brown's designation of the matter to be included in the record. In this letter, dated
December 1, 2015, the District's counsel stated, "Enclosed herewith for filing
pursuant to S.C. Code Ann. § 59-25-480, please find a certified copy of the
transcript record of the proceedings before Respondent Cherokee County School
District Board of Trustees . . .
Furthermore, the circuit court's order affirming
the Board's finding that Brown was unfit to teach stated, "After reviewing the
transcript of the School Board's hearing and exhibits presented as part of the
hearings record ... the School Board's decision is affirmed." Therefore, we find
the District filed a transcript of the Board hearing with the circuit court as required
by section 59-25-480. See § 59-25-480(B) ("Notice of the appeal and the grounds
thereof shall be filed with the district board of trustees. The district board shall,
within thirty days thereafter, file a certified copy of the transcript record with the
clerk of such court."). Accordingly, we affirm as to this issue.
G. Brown's Remaining Issues
Brown argues her termination was excessive because she "was an exemplary
teacher" for the District for seventeen years "with no record of being dishonest,"
and she did not touch or assault Student J. She also claims the circuit court and
Board erred because it failed to rule "that during the summer months when school
was out, Brown was not under a contract with" the District.
Brown abandoned these issues on appeal because she failed to cite to any
supporting authority for her arguments. See First Sav. Bank v. McLean, 314 S.C.
361, 363, 444 S.E.2d 513, 514 (1994) (providing an appellant abandons an issue by
"failing] to provide arguments or supporting authority for his assertion"); Fields v.
Melrose Ltd. Fship, 312 S.C. 102, 106 n.3, 439 S.E.2d 283, 285 n.3 (Ct. App.
1993) (stating an issue is deemed abandoned on appeal and, therefore, not
presented for review, if it is argued in a short, conclusory statement without
supporting authority). Accordingly, we affirm as to these issues.
IV.

CONCLUSION

Based on all of the foregoing, we affirm the circuit court's orders affirming the
Board's determination.

I
J

AFFIRMED.10
LOCKEMY, C.J., and KONDUROS and HILL, JJ., concur.

1
I

i

i

i

10

We decide this case without oral argument pursuant to Rule 215, SCACR.

APPENDIX B: Appellant's Petition for
Rehearing with Suggestion for En
Banc, Filed by S.C. Ct. of Appeals on
Jan. 28, 2020

THE STATE OF SOUTH CAROLINA
In The Court of Appeals
APPEAL FROM CHEROKEE COUNTY
Court of Common Pleas

JAM 2 8 2020

Honorable J. Mark Hayes Jr., Circuit Court Judge
p\

Court of Appeals

Docket Case No. 2015-CP-11-0828
Appellate Case No. 2017-001466

Appellant,

Sharon Brown,

vs.
Respondent.

Cherokee County School District,

APPELLANT'S PETITION FOR REHEARING WITH SUGGESTION EN BANC

FLETCHER N. SMITH JR. (S.C. Bar# 005165)
P.O. Box 10496, F.S.
Greenville, South Carolina 29603
(864)232-6541
(864)232-6756 Fax
fnsmith@bellsouth.net
ATTORNEY FOR APPELLANT

1

TABLE OF CONTENTS
Table of Authorities.

3

Introduction.

4-6

Argument
I. Did the School District Violate the Mandatory Commands of S.C. Code §59-25-480
And Rule 75 SCRCP by Not Filing A Record Certified by The Chief Official of The
School Board of Trustees Within 30 Days After Brown, the Petitioner Filed Her Notice
6-13
of Intent to Appeal?
II. Did the Court Err in Ruling That Brown Was Unfit to Teach Due to Dishonesty
During the Investigation into An Alleged Assault of a Minor School Aged Child Where
Brown Is Alleged to Have Failed to Comply with A Directive of Her
14-15
Superior?......................................................................................
IH. S.C. Code Section 59-25-430 dishonesty provision is void for vagueness and is
15
violative of due process
15

Conclusion.

2

TABLE OF AUTHORITIES
Page(s)

Cases:
Brown vs. William B. James, Superintendent for Cherokee County School District,
389 S.C. 41, 697 S.E.2d 604 (Ct. App. 2010)........................................................

,7

Hall vs. The Board of Trustees of Sumter County School District No. 2,
330 S.C. 402,499 S.E.2d216..............................................................................

14

Joyner v. Glimcher Properties,
356 S.C. 460,463, 589 S.E. 2d 762,765 (Ct. of App. 2002).

12

McWbirter v. Cherokee County School District 1,
274 S.C. 66,261 S.E. 2d 157 (1979)....................................................

7

State v. Legg, 416 S.C. 9,785 S.E. 2d 369 (2016).................................

15

Tony v. Lee County School District,
419 S.C. 210,797 S.E. 2d 55 (Ct App. 2017)........................................

6,14

Town ofMt. Pleasant v. Chimento 401 S.C. 522, 737 S.E. 2d 830 (2012)

15

Statutes:
S.C, Code Ann § 59-25-410

13

S.C. Code Ann § 59-25-430

14

S.C. Code Ann § 59-25-480,

.4,5,6,8,9,10,11,12,13
7

APA § 1-23-380.

Rule(s):
,4,5,6,8,9,10,11

Rule 75, SCRCP

4

Rule 221, SCACR.

3

INTRODUCTION
Pursuant to Rule 221, SCACR, Sharon Brown, a school teacher, petitioner and appellant
petitions this court for a rehearing with a suggestion en barn: on the above-entitled matter after an
unpublished opinion dated January 15,2020 was issued which affirmed the decision of the
circuit court judge who upheld the decision ofthe Cherokee County School Board Trustees to
terminate the teaching employment contract of Brown. It is to be noted that no argument has
been waived in our brief and we assert them fully as supplemental to this Petition for Rehearing.
Additionally, in no way should this Petition be construed as an attack on the Circuit Court
Judge who I consider to be a fine judge with exemplary standards and character and on this Panel
as well. Nevertheless, from the record below it is clear that the District failed to do the following:
1. The District never presented a certified record from the School District signed by an
agency official as mandated by Rule 75 SCRCP or S.C. Code 59-25-480.
2. The transcript of the hearing below was certified by the Court reporter and not by an
agency official.
3. A certified order was not filed with the Clerk of Court’s Office within 30 days of the
filing of an appeal by Brown with the Circuit Court.
4. The vote of the Board of Trustees ratifying Brown’s termination was not certified
within thirty days to the Clerk of Court of Cherokee County as required by Rule 75
SCRCP and S.C. Code 59-25-480.
The record reflects the following:
1.

Brown files notice of appeal with circuit court and district

2.

District has 30 days to have an official of the District sign a certified transcript of
record below. Here the District only filed the court reporter certified Transcript of

3.

the Teacher Dismissal Hearing.
District then transmitted this non-agency official Certified Transcript to the
Cherokee County Clerk of Court’s Office for filing.
4

4.

District’s transmittal must be more than the just the record of the hearing below
but must include any relevant Certified orders of the District and the certified vote
of the District Board of Trustees.

5.

Then Brown filed briefs and other exhibits with the Circuit Court

6.

The Circuit Judge stated that he considered the following: "After reviewing the
transcript of the School board's hearing and the exhibits presented as a part
ofthe hearing's record, reviewing the pleadings and briefs in the Clerk of
Court's file, considering the arguments presented by counsel, and applying
the required standard of review, the School Board's decision is affirmed."

7.

The School Board Chair Stated: “We thank everyone for their participation in the
hearing and ask that you please excuse us now so we can begin our deliberation.
As I indicated at the beginning, the Board will deliberate in executive session at
the close of the summation. No votes will be taken in executive session. The
Board will vote in open session and announce its decision. Within 10 days a
written decision of fire Board will be issued consistent with the Board's
announced decision, the evidence presented, and applicable law.” Supplemental
Record on Appeal page 442 lines 14-25.

8.

Then a decision and judgment is rendered by the Circuit Court Judge.

We believe that the Court applied a standard of review not warranted by the facts
and law in this case. In this regard we believe that it is understandable that the Panel
misconstrued and misapplied its application of Code §59-25-480 and SCRCP 75 where
the Court did not take the opportunity to discuss the gaps in S.C, Code §59-25-480.
Moreover, we also believe that the Circuit Court judge was hamstrung by the
misrepresentations of the District about whether the record in the School District was
complete and certified by the requisite agency official as contemplated under S.C. Code
§59-25-480 and Rule 75 SCRCP. We also believe that the District’s legal counsel was
confused and as such committed the logical fallacy of equivocation by equating the
Transcript of the Teacher Dismissal Hearing, which transcript was certified by the court

5

reporter, as the complete record on appeal before the Circuit Court as of December 1,
2015.
Additionally, we respectfully believe that this Court overlooked its own precedent
Tony v. Lee County School District., 419 S.C. 210,797 S.E.2d 55 (Ct App. 2017J as it
related to termination of Brown’s contract under the substantial evidence standard of
proof.
ARGUMENT I
Did the School District Violate the Mandatory Commands of S.C. Code §59-25-480
And Rule 75 SCRCP by Not Filing A Record Certified by The Chief Official of The School
Board of Trustees Within 30 Days After Brown the Petitioner Filed Her Notice of Intent to
Appeal?
CONCLUSION
A School District Violates the Mandatory Commands of S.C. Code §59-25-480 And
SCRCP 75 by Not Filing A Record Certified by The Chief Official of The School Board of
Trustees Within 30 Days After Brown, the Petitioner, Filed Her Notice of Intent to Appeal.
The Court of Appeals appears to have overlooked the relationship between S.C. Code
§59-25-480 and Rule 75 SCRCP. From precedent it appears that both should be read together.
S.C. Code §59-25-480 provides:
[A) The decision of the district board of trustees is final, unless within thirty
days afterward an appeal is made to the court of common pleas of any county
in which the major portion of such district lies.
(B) Notice of the appeal and the grounds thereof shall be filed with the
district board of trustees. The district board shall, within thirty days
thereafter, file a certified copy of the transcript record with the clerk of such
court An appeal from the order of the circuit court shall be taken in the
manner provided by the South Carolina Appellate Court Rules. If the decision
of the board is reversed on appeal, on a motion of either party the trial court
shall order reinstatement and shall determine the amount for which the
board shall be liable for actual damages and court costs. In no event shall any
6

liability extend beyond two years from the effective date of dismissal.
Amounts earned or amounts earnable with reasonable diligence by the
person wrongfully suspended shall be deducted from any back pay.
SCRCP 75 provides in part:
Appeals to the circuit court shall be made upon the original record in the lower court or
administrative agency or tribunal. Upon filing of notice of appeal in an action the original record
shall be certified by the clerk of the inferior court or administrative agency or tribunal.
The general proposition under the APA § 1-23-380 is that a party "who has exhausted all
administrative remedies available within the agency and who is aggrieved by a final decision in a
contested case is entitled to judicial review pursuant to this article and Article 1. Judge Geathers
goes on to state that all the courts have applied APA standards to certain school board
administrative decisions. See Brown v. James, 389 S.C. 41, 697 S.B.2d 604 (2010).
In the context of school district terminations of teachers, the school district is looked
upon as an agency as defined in the Administrative Procedures Act. See Brown v. James, 3 89
S.C. 41, 697 S.E.2d 604 (2010), also see McWhxrter v. Cherokee County School District 19 274
S.C. 66,261 S.E.2d 157 (1979). "The observance ofprocedural requirements of the Employment
and Dismissal Act is mandatory and not a matter for discretion." Brown v. James, 389 S.C. 41,
697 S.E.2d 604 (Court of Appeals 2010).
In Brown v. James> the school district prevented Brown from having a due process
hearing. Brown v. James supra. It is noteworthy to state that this is the same Sharon Brown that
is presently before the court and the panel.
Here, Brown exhausted her administrative remedies. The district in turn was duty bound
to strictly comply with South Carolina Code § 59-25-480 which by its own admission, the
district did not do. See Brown v. James supra.

7

The appeals panel understandably misconstrued and misapplied an erroneous standard of
proof in its finding that there was substantial evidence that the trial transcript was filed. The
Panel did not properly apply South Carolina Code § 59-25-480 and Rule 75 SCRCP.
Respectfully, the District did not submit the entire record below. The way the process
should have worked is as follows:
1.

Brown files notice of appeal with circuit court and district.

2.

District has 30 days to have an official of the District sign a certified Record of all
the proceedings and documents below.

3.

District then must transmit this Certified Record to the Cherokee County Clerk of
Court’s Office for filing.

4.

District’s transmittal must be more than just the record of the hearing below but
must include any relevant Certified orders of the District and the certified vote of
the District Board of Trustees.

5.

The Appellant then has a due process hearing before the Circuit Court applying
the substantial evidence standard of proof.

6.

Then a decision and judgment is rendered by the Circuit Court Judge.

What was not done in this case:
7.

The District never presented a certified record from the School District signed by
an official as mandated by Rule 75 SCRCP or S.C. Code 59-25-480.

8.

The transcript of the hearing below was certified by the Court reporter and not by

9.

an agency official.
A certified order was not filed with the Clerk of Court’s Office within 3 0 days of
filing of an appeal by Brown with the Circuit Court;

10.

The vote of the Board of Trustees ratifying Brown’s termination was not certified
within thirty days to the Clerk of Court of Cherokee County as required by
SCRCP 75 and S.C. Code 59-25-480.

8

Since the School District transmitted what we say is a defective and incomplete
non-certified “record” to the Circuit Court, the Circuit Court judge could not properly
consider and apply the substantial evidence standard of proof without running afoul of
both due process and equal protection clauses of both the South Carolina Constitution,
the Federal Constitution and mandatory State Statutes, such as 59-25-480 and Rule 75 of
SCRCP. The Statutory provisions of the Act governing teacher dismissals are mandatory
on all parties.
Since S.C. Code §59-25-480 only deals with part of the transmittal process. It is clear
that the Rule 75 fills in the gaps and list the administrative agency's clerk, then if no agency
clerk, then some other top official as being charged with certifying the transmittal of the
record from the School board of trustees to the Circuit Court Clerk. Here legal Counsel for
the School Board of Trustees of Cherokee County gives the impression from her December
1,2015 letter that she filed a certified transcript. This hearing transcript was certified by
the Court Reporter. However, Ms. White has not identified any school board official who
signed off and certified the record that was ultimately transmitted to the Clerk of Court of
Cherokee County. Not having done this, due diligence renders the "Record' before the
Circuit Judge defective and a nullity in terms as to what was ordered in the way of
termination of Brown since no valid order existed before the Circuit Judge.
Filing a defective uncertified record does not excuse the District from filing a
certified record.
Additionally, the District's legal counsel's letter to the Court of Appeals dated
November 22,2017, the School Board's counsel states that she filed the Transcript of
record on December 3,2015 which is a different date than what she represented in her
letter dated December 1,2015. Additionally, the School Board claims that the only record

9

they submitted to the Cherokee County Clerk of Court was the Transcript of the Hearing
below that was typed by the court reporter. This is significant because fudge Hayes only
considered the following:
"After reviewing the transcript of the School board's hearing and the exhibits
presented as a part of the hearing's record, reviewing the pleadings and briefs in the Clerk
of Court's file, considering the arguments presented by counsel, and applying the required
standard of review, the School Board's decision is affirmed,” R. p. 2.
As has been adverted to Rule 75, states, in pertinent part, appeals to the Circuit Court shall
be made upon the original record in the lower court or administrative agency or tribunal. Upon
filing of notice of appeal in an action, the original record shall be certified by the clerk of the
inferior court, or administrative agency or tribunal and transmitted within 30 days to the clerk of
court to which the appeal is taken. If the lower court, agency or tribunal has no clerk, then the
original record shall be certified and transmitted bv the judge or chief official of the lower court,
agency or tribunal. (Emphasis added).
In this case, we have not been provided with the name ofthe person who properly
certified the record from the School Board of Trustees of Cherokee County to be transmitted to
Ihe Cherokee County Clerk of Court within the thirty (30) requirement under both the Statute
and the Rule 75. Moreover, the Court reporter does not appear to be listed in either S.C. Code
§59-25-480 or Rule 75 of the SCRCP.
Respectfully, the Panel’s finding that the District “ .. .has provided substantial evidence
that it did file a transcript ofthe board hearing” with respect to the mandatory certification is
questionable with regard to the confused dates on the District about when the transcript of the
hearing was filed

a lack of a named certifying official of the Record before Judge Hayes.

Also, the Panel’s reasoning does not comport with the plain language of either tfye Statute of S.C.
Code 59-25-480 or Rule 75 SCRCP.
10

Additionally, the Court of Appeals appears to be confused about the issue as to who
certifies the record below and what is to be included in the record. Clearly, the transcript and the
exhibits from the Court reporter were insufficient. It follows that the School District had the
burden to provide the lower court judge with the decision and order of the School District within
the 30 days contemplated by both the Statute of S.C. Code §59-25*480 and Rule 75 ofthe
SCRCP,
It is axiomatic that Brown’s due process rights were violated by this oversight by the
Court of Appeals which is understandable due to the misrepresentations made by the District to
the Clerk of Court, Brown’s legal Counsel and the Court of Appeals concerning the certification
issue and the District’s mischaracterization of what it filed or didn’t filed in the Cherokee County
Clerk of Court’s Office.
To reiterate, from the record below, it does not appear that the school board and/or its
agents, servants and/or employees complied with Rule 75 ofthe South Carolina Rules of Civil
Procedure because it does not appear that the record below was certified to the circuit court by
the administrative agency itself. And it does not appear, we believe, that Ms. White on behalf of
the school district has submitted a certified record to the circuit court. If so, then please show us
who signed and where it has been submitted.
Clearly then, the Cherokee County School District did not comply with 59-25-480 and/or
Rule 75 of the South Carolina Rules of Civil Procedure. It is stated in Vansantv. Smith that
Rule 74 and 75 make uniform the procedure on appeals to the circuit court where there is no
provision by statute or do not replace any provision in Title 18 relating to such appeals in other
statutes. Clearly, Rule 75 must be read with 59-25480 in order to deal with the issue of
transmittal of the record below.
In its Brief, the District states that "The District has presented evidence to this Court that
it filed the transcript. In its return filed with this Court on November 27,2017, the District
11

responded to Appellants designation ofmatters to be included in the record on appeal to ask this
Court to include a transcript of the teacher dismissal hearing. In that return, the District included
as Exhibit A its counsel's letter to the Honorable Brandy McBee, Cherokee County Clerk of
Court, dated December 1,2015, "enclosed for filing the transcript of Brown's teacher's dismissal
hearing in accordance with the requirements of South Carolina Code Annotated § 59-25-480."
Brown's counsel was copied on the December 1,2015 letter. In that return the district states, "As
further evidence the District filed a transcript, and that it was received by the lower court,
Circuit Court Judge J. Mark Hayes cites to the transcript in his order upholding the Board's
decision, demonstrating that the transcript was in feet filed. Had the transcript not been filed,
Judge Hayes could not have reviewed it." The District also states," assuming arguendo that the
clerk of court did not receive the transcript, the appropriate relief is not Brown's reinstatement
Once Brown was informed, through her counsel's discussion with the Cherokee County Court of
Common Pleas' clerk on October 30,2017, that the cleric had not received the transcript, Brown
was on notice that there was a possible question over the filing of the transcript As such, Brown
should have remedied the matter by pursuing the appropriate writ ofmandamus, which she did
not do.”
Please note in the Transcript of the Teacher Dismissal Hearing there was no order filed
with it Look at Supplemental Record p. 442.
The District cited Joyner v. Glimcker Properties, 356 S.C. 460,463,589 S,E.2d 762,765
(CL ofApp. 2002).
This argument is without merit Why? Because the District’s legal Counsel allegedly
transmitted an uncertified and incomplete record to the Clerk of Court of Cherokee County. This
is distinguishable from the procedure in the magistrates Court’s where the Magistrate is
mandated to file a return where neither the Solicitor or Criminally Accused are employees
charged with transmittal of the Return form the Magistrate to the Court of Common Pleas versus
the Clerk of Court’s Office. Here, White claims in two different letters that she transmitted the
transcript of the Teacher Dismissal Hearing and its exhibits to the Clerk of Court. On page 442
Lines 14-25 Transcript sets forth what the Chairperson of the Board States:
12

“We thank eveiyone for their participation in the hearing and ask that you please excuse
us now so we can begin our deliberation As I indicated at the beginning, the Board will
deliberate in executive session at the close of the summation. No votes will be taken in executive
session. The Board will vote in open session and announce its decision. Within 10 days a written
decision of the Board will be issued consistent with the Board’s announced decision, the
evidence presented, and applicable law.” Supplemental Record on Appeal page 442 lines 1425.
What Judge Hayes states he considered in rendering his decision:
“After reviewing the transcript of the School Board’s hearing and the exhibits
presented as a part of the hearings record, reviewing the pleadings and briefs in the Clerk of
Court’s file, considering the arguments presented by Counsel, and applying the required standard
of review, the Board’s decision is affirmed.” R.. p. 2.
So where is the Certified decision ofthe Board of Trustees and its vote other than the
exhibits that were filed by Brown? There is no decision that was timely filed by White as legal
counsel that Brown had in fact been fired. The District had a right to certify any aspect it
considered to be its record. No such duty fell upon Brown to have a wnt issued to force the
District to protect its own decision before the Circuit Judge.
The Panel cannot relax 1he rules to suit the District’s Mure to comply with the clear
commands ofthe Employment and Dismissal Act S.C. Ann.§ 59-25-410,59-25-480.
CONCLUSION
Since the District chose what record to submit and that record being defective on its face,
reversal of the Circuit Judge and School Board’s decision is mandated because it is impossible to
apply the substantial evidence standard of proofto the facts in the Transcript of the hearing
without a certified decision from the District and as such the lower court’s decision should be
reversed and Brown must be reinstated to her former teaching position.

13

ARGUMENT II
Did the Court Err in Ruling That Brown Was Unfit to Teach Due to Dishonesty
During the Investigation into An Alleged Assault of a Minor School Aged Child Where
Brown Is Alleged to Have Failed to Comply with A Directive of Her Superior?

This Court states:
“Because one ground for Brown’s termination-dishonesty-wa»s supported by
substantial evidence, the Circuit Court did not err in affirming the Board’s finding that
Brown was unfit to teach pursuant to 59-25-430.”
We believe that the court of appeals overlooked and/or misapprehended its prior
precedent as set forth in the case of Tony v. Lee County School District, 419 S.C. 210,797
S.E.2d 55 (Ct App. 2017/ It appears to be a clear equal protection and due process oversight.
In Tony, a determination by the Lee County School District was made to terminate a
teacher from employment for disobeying a directive not to have contact with any employees of
the school district and for a lack of candor during the course of an investigation into that
teacher's alleged misconduct and/or unfitness to teach. The court of appeals in that case affirmed
the decision of the circuit court judge and held that the lack of candor and the failure to follow
the directives of the superintendent did not rise to the level which warranted termination as set
forth by the school board in its determination on the substantial evidence standard of proof. See
Hattv. Board ofTrustee, 330 S.C. 420,499 S.E. 2d 216 (a. App. 1998).
It is noteworthy that both Judge Lockemy and Judge Konduros participated in the Tony
decision as these said two judges participated on the panel of the above-referenced matter now
before it. I suppose a lack of candor means “dishonesty.” If that be the case, maybe Tony
deserved to be fired for unfitness. But we know from the decision that was not the result in
where the court recognized that in some ways Tony acted in several ways unprofessional.
14

Since there appears to be a conflict and/or an overlooking of the precedent of its own
court, Brown requests that the court rehear this matter in the panel with a respectful suggestion
of an en banc hearing.
Finally, the Court overlooked precedent that 59-25-430*s dishonesty provision is void for
vagueness and a violation of Due Process both substantive and procedural due to its over-breath.
Thus this portion of the statute is unconstitutional. See State v. Legg, 416 S.C. 9,785 S.E. 2d 369
(2016); Town ofMt, Pleasant v. Chimento 401 S.C. 522,737 S.E. 2d 830 (2012).
CONCLUSION
This prejudice the Petitioner in so many ways. As such, Petitioner requests that the
Circuit Court’s decision be reversed and that Brown be ordered reinstated to her job as a school
teacher. A job she is well qualified to serve in.
/'

,FEE£f2HERN.
'Attorneyfor Plaintiff
South Carolina State Bar No. 5165
P.O. Box 10496, F.S.
Greenville, SC 29601
Office: (864)232-6541
Facsimile: (864) 232-6756
Email: fiismith(5)bellsouth.net
Greenville, South Carolina
Dated: Saturday, January 25,2020

15

EXHIBIT A

I

; THE STATE OF SOUTH CAROLINA
i
In The Court of Appeals

■» i

APPEAL FROM CHEROKEE COUNTY
Court of Common Pleas
J, Mark Hayes Jr., Circuit Court Judge

' Docket Case No.: 2015-CP-U-0828
Appellate Case No. 2017-001466

Appellant,

Sharon Brown,

vs.
Respondent.

Cherokee County School District,

SUPPLEMENTAL RECORD ON APPEAL

FLETCHER N. SMITH JR, (S.C. Bar # 005165)
P.O. Box 10496, F.S.
t
Greenville, South Carolina 29603
(864J-232-6541
(864)232-6756 Fax
fnsmlth@bellsouth.net
ATTORNEY FOR APPELLANT
OTHER C0UNSEI5 OF RECORD:
ANDREA E. WHITE (S.C. Bar# 11891)
BRITTANY M. LOZANNE (S.C BAR # 78720)
White & Story, LLC
P.O. Box 7036
Columbia, S.C. 29202

(803)814-0993
(803)814-1183 Fax
ATTORNEYS FOR RESPONDENT

RBCEIWT)
JAN 0 8 2018

SC Court of Appeals

.

• -

STATE OF SptJTH CAROLINA
,
• COUNTV
OF
CHEROKEE

) BEFORE THE BOARD OF TRUSTEES ■
) OF CHEROKEE COUNTSSCHOOL ‘•VV*) DISTRICT
•'

^

Dr. Quincie Moore,
Complainant,
VS.

}

Sharon Bro>m,

COPY

Respondent.
li

IK

A)

TRANSCRIPT OF THE
TRRGHER DISMISSAL HEARING
★★A*******

Wednesday, October 7, 2015
6:35 p.m. - 10:45 p.m.
H,eAd at. the cher°kee County School District Office
141 Twin Lake Road, Gaffney, South Carolina 29341
(

Bbard Members Present:
Cheryl Smith, Board Chairman
Barry Bailey
Billy Blackwell
Elaine Fowler
Robin Harper
Tracy Moore
Mark Nix
Attorney for the Board:

Kenneth E. Darr, Jr •, Esquire

Andrea E. White, Esquire representing the Complainant
Fletcher N. Smith, Jr., Esquire, representing the
Respondent

URSO COURT REPORTING'
’7001 St. Andrews Road, Box 407, Columbia, SC
(803) 960-2604

29212

s ••

I

*—
1

COftftgY SCHOflfr PgpppeB^XCSg PXSMISSAT-

«

She does a good job.

None of them have come in here

»

•f

166

r

-- .

* t.

i*

Fact is she's a

2

and told you she does a bad job.

3

good teacher,

4

read that Hall case, had nothing to do with the

5

classroom whatsoever, and on that basis, she can't

6

be fired by the superintendent or recommended,* have

7

a recommendation for her firing, so I ask you all to

’8

bring her back,

9

What conversation she had, and you'll

You all have no enemies to punish

or anybody reward, but I think it ought to end

10

tonight,

I think this whole situation ought to end

11

tonight.

Her contract should be honored by the

12

school district, and, and I'll leave it in you all's

13

hands.

14

Thank you.

MADAM CHAIR:

We thank everyone for their

15

participation in the hearing and ask that you please

16

excuse us now so we can begin our deliberation.

17

I indicated at the beginning, the Board will

18

deliberate in executive session at the close of the

19

summation.

20

session.

21

announce its decision,

22

decision of the Board will be issued consistent with

23

the Board's announced decision, the evidence

24

presented, and applicable law.

25

As

No votes will be taken in executive
The Board will vote in open session and
Within 10 days a written

' (Off the record)
URSO COURT REPORTING
7001 St. Andrews Road, Box 407, Columbia, SC
(803) 960-2604

29212

i

C&RTlfflGATE
This is to certify that the foregoing transcript of
Cherokee County School Board hearing, consisting of one
hundred sixty—six (166) pages, is a true and correct
transcript of the testimony given at said hearing; said
hearing was reported by the method' of voice writer with
backup.

i

X further certify that I am neither employed by nor
related to any of the parties in this matter or their
counsel; nor do X have any interest, financial or
otherwise, in the outcome of same.

f

IN WITNESS WHEREOF, I have hereunto set my hand and
seal this 31at day of October, 2015.

.Ojyy&ife
rtifJ^P^f^urt Reporter

Notary Public for South Carolina
My Commission Expires: 1-24-21

v

l

* /> ( I ll

t/*

.L

ORSO COURT- REPORTING
7001 St. Andrews Rgad, Box 407 / Columbia, SC
(803) 960-2604
A Ati

29212

i
i
t
i

APPENDIX C: South
Carolina Court of Appeals
Order, filed May 22, 2020

{Ef)ej£§>outIj Carolina Court of gppeate
Sharon Brown, Appellant,
v.
Cherokee County School District, Respondent.
Appellate Case No. 2017-001466
i

ORDER
After careful consideration of the petition for rehearing, the Court is unable to
discover that any material fact or principle of law has been either overlooked or
disregarded, and hence, there is no basis for granting a rehearing. Accordingly, the
petition for rehearing is denied.
C. J.
J.
J.
Columbia, South 'Carolina
cc:

Fletcher N.| Smith, Jr., Esquire
Andrea Eaton White, Esquire

FILED

_m

2a Qcqg
7

t

I

D: Appellant's Writ of Certiorari,
filed June 23, 2020 in the Supreme
Ct. of South Carolina
s

i

RECEIVER)
THE STATE OF SOUTH CAROLINA
In The Supreme Court

JUN 23 2020
S.C. SUPREME COURT

APPEAL FROM CHEROKEE COUNTY
Court of Common Pleas
J. Mark Hayes Jr., Circuit Court Judge

Docket Case No. 2015-CP-11-0828
Appellate Case No. 2017-001466
Unpublished Opinion No. 2020-UP-01E

Appellant,

Sharon Brown,

vs.
Cherokee County School District,

Respondent.

APPELLANT'S PETITION FOR A WRIT OF CERTIORARI

FLETCHER N. SMITH JR. (S.C. Bar # 005165)
P.O. Box 10496, F.S.
Greenville, South Carolina 29603
(864)232-6541
(864)232-6756 Fax
fnsmith@bellsouth.net
ATTORNEY FOR APPELLANT
Other Counsel of Record:
ANDREA E. WHITE (S.C. Bar #11891)
White & Story, LLC
P.O. Box 7036
Columbia, S.C. 29202
(803)814-0993
(803)814-1183 Fax
ATTORNEY FOR RESPOND

INDEX
4

Certificate of Counsel
Table of Authorities

3-5

Questions Presented

6
7-9

Statement of the Case.

Arguments
1. THE COURT OF APPEALS SHOULD HAVE RULED THAT THE APPELLANT'S
DUE PROCESS RIGHTS WERE VIOLATED WHEN THE CHEROKEE COUNTY SCHOOL
DISTRICT BOARD OF TRUSTESS FAILED TO FILE A RECORD CERTIIFED BY THE
CHIEF OFFICIAL OF THE SCHOOL BOARD OF TRUSTEES WITHIN 30 DAYS OF
APPELLANT FILING AN APPEAL IN THE CIRCUIT COURT. FAILURE TO FILE A
RECORD SIGNED BY AN OFFICIAL OF THE AGENCY RESULTS IN THE TEACHER
9-17
TERMINATION BEING NULL AND VOID
A. THE COURT OF APPEALS AND THE CIRCUIT COURT COULD NOT
LEGALLY ENGAGE IN "SUBSTANTIAL INQUIRY” INTO WHETHER THE
RESPONDENT DISTRICT HAD SUBSTANTIAL EVIDENCE TO TERMINATE
APPELLANT AS A TEACHER GIVEN THAT THE RESPONDENT DID NOT SUBMIT TO
THE CIRCUIT COURT CLERK OF COURT'S OFFICE A CERTIFIED RECORD FROM THE
SCHOOL DISTRICT SIGNED BY AN OFFICIAL AS MANDATED BY RULE 75 SCRCP
OR S.C. CODE §59-25-480...................................................................................................... 17
B.. THE COURT OF APPEALS FAILED TO RULE THAT THE FILING OF A
CERTIFIED RECORD SIGNED BY AN OFFICIAL OF THE AGENCY (SCHOOL
DISTRICT) IS A PREREQUSITE TO THE PURSUIT OF A TEACHERS REQUEST FOR
JUDICIAL REVIEW OF HER TERMINATION BY THE CIRCUIT
17-18
COURT.
C. ALL LEVELS OF STATE COURT LACK THE AUTHORITY TO AUTHORIZE
AN EXTENSION TO FILE AN AGENCY RECORD CERTIFIED BY AN AGENCY
OFFICIAL WHEN THE AGENCY (RESPONDENT DISTRICT) DID NOT REQUEST AN
EXTENSION BEFORE THE 30 DAY PERIOD TO FILE RECORD
18
EXPIRED

2

D. THE COURT OF APPEALS SHOULD HAVE HELD THAT A SCHOOL
DISTRICT’S FAILURE TO FILE A COMPLETE AND OFFICIAL CERTIFIED
TRANSCRIPT OF RECORD IN A TEACHER TERMINATION APPEAL IS TANTAMOUNT
TO NO TRANSCRIPT AT ALL HAVING BEEN FILED BY THE SCHOOL
18
DISTRICT.
3. THE COURT OF APPEALS ERRED IN RULING THAT BROWN WAS UNFIT TO
TEACH DUE TO DISHONESTY DURING THE INVESTIGATION INTO AN ALLEGED
ASSAULT OF A MINOR SCHOOL AGED CHILD WHERE BROWN IS ALLEGED TO
19-20
HAVE FATTED TO COMPLY WITH A DIRECTIVE OF HER SUPERIOR.
4. THE COURT OF APPEALS ERRED IN FAILING TO RULE THAT S.C. CODE
§59-25-430 DISHONESTY PROVISION IS VOID FOR VAGUENESS AND IS VIOLATIVE
20
OF DUE PROCESS
.20

Conclusion.

3

CERTIFICATE OF COUNSEL
Counsel for petitioner certifies that the Petition for Rehearing was made and finally ruled
on by the Court of Appeals on May, 22, 2020.

FLlT(&jfN. SMITH, JR.
Attorneyfor Plaintiff
South Carolina State Bar No. 5165
P.O.Box 10496, F.S.
Greenville, SC 29601
Office: (864) 232-6541
Facsimile: (864) 232-6756
Email: fnsmith@bellsouth.net

Greenville, South Carolina

4

TABLE OF AUTHORITIES
Page(s)

Cases:
Brown vs. William B. James, Superintendent for Cherokee County School District,
389 S.C. 41, 697 S.E.2d 604 (Ct. App. 2010)............................................................

10

Hall vs. The Board of Trustees of Sumter County School District No. 2,
330 S.C. 402,499 S.E.2d216..................................................................

19

Joyner v. Glimcher Properties,
356 S.C. 460, 463, 589 S.E. 2d 762, 765 (Ct. of App. 2002).

15

McWhirter v. Cherokee County School District 1,
274 S.C. 66, 261 S.E. 2d 157 (1979).....................

10

State v. Legg, 416 S.C. 9, 785 S.E. 2d 369 (2016)

20

Tony v. Lee County School District,
419 S.C. 210, 797 S.E. 2d 55 (Ct. App. 2017).

19

Town of Mt. Pleasant v. Chimento 401 S.C. 522, 737 S.E. 2d 830 (2012)

20

Statutes:
S.C. Code Ann § 59-25-410

16

S.C. Code Ann § 59-25-430

20

S.C. Code Ann § 59-25-480,

9, 10
10

APA§ 1-23-380
Rule(s):

10,13

Rule 75, SCRCP

7

Rule 242, SCACR.

5

QUESTIONS PRESENTED
1. Did the Court of Appeals err by not ruling that Cherokee County School District violated the
mandatory commands of S.C. Code § 59-25-480 and Rule 75 SCRCP by not filing a record
certified by The Chief Official of The School Board of Trustees within 30 days after Brown, the
Petitioner filed her Notice of Intent to Appeal?
A. Did the court of appeals unlawfully engage in "substantial inquiry" into whether the
respondent district had substantial evidence to terminate appellant as a teacher given the fact that
the respondent school district failed to submit to the circuit court clerk of court's office a certified
record from the school district signed by an official of the school district as mandated by rule 75
SCRCP or S.C. Code §59-25-480?
B.. Did the Court of Appeals err in failing to rule that a prerequisite to the pursuit of a
teachers request for judicial review of her termination by the circuit court includes the filing by
the agency of a complete certified record signed by an official of the agency?
C. Did the Court of Appeals err in failing to rule that all levels of state court lack the
authority to authorize an extension to file an agency record certified by an agency official if the
agency (respondent district) did not request an extension before the 30 day period to file record
expired?
D. Did the Court of Appeals err in not ruling that an agency's (school district's) failure to
file a complete and official certified transcript of record in a teacher termination appeal is
tantamount to no transcript at all having been filed by the school district?
2. Did the Court of Appeals err in ruling that Brown was unfit to teach due to dishonesty during
the investigation into an alleged assault of a minor school aged child where Brown is alleged to
have failed to comply with a directive of her superior?
3.. Did the Court of Appeals err by failing to rule that S.C. Code Section 59-25-430 dishonesty
provision is void for vagueness and is violative of due process'?

6

INTRODUCTION
Pursuant to Rule 242, SCACR, Sharon Brown, a school teacher, petitioner and appellant
petitions this court for a Writ of Certiorari on the above-entitled matter after an unpublished
opinion dated January 15, 2020 and an order denying appellant's petition for rehearing was
issued by the South Carolina Court of Appeals on May 22, 2020. The South Carolina Court of
Appeals affirmed the decision of the circuit court judge who upheld the decision of the
Cherokee County School Board Trustees to terminate the teaching employment contract of
Brown. It is to be noted that no argument has been waived in our brief and we assert them fully
as supplemental to this Writ for Certiorari.
Additionally, in no way should this Petition be construed as an attack on the Circuit Court
Judge or the Court of Appeals Panel. Nevertheless, from the record below it is clear that the
Respondent District failed to do the following:
1. The District never presented a certified record from the School District signed by an
agency official as mandated by Rule 75 SCRCP or S.C. Code 59-25-480
2. The transcript of the hearing below was certified by the Court reporter and not by an
agency official;
3. A certified order was not filed with the Clerk of Court’s Office within 30 days of the
filing of an appeal by Brown with the Circuit Court;
4. The vote of the Board of Trustees ratifying Brown’s termination was not certified
within thirty days to the Clerk of Court of Cherokee County as required by SCRCP
75 and S.C. Code 59-25-480.
The record reflects the following:
1.

Brown files notice of appeal with circuit court and district.

2.

District has 30 days to have an official of the District sign a certified transcript of
record below. Here the District only filed the court reporter certified Transcript of
the Teacher Dismissal Hearing
7

3.

District then transmitted this non-agency official Certified Transcript to the
Cherokee County Clerk of Court’s Office for filing.

4.

District’s transmittal must be more than the just the record of the hearing below
but must include any relevant Certified orders of the District and the certified vote
of the District Board of Trustees.

5.

Then Brown filed briefs and other exhibits with the Circuit Court.

6.

The Circuit Judge stated that he considered the following: "After reviewing the
transcript of the School board's hearing and the exhibits presented as a part
of the hearing's record, reviewing the pleadings and brief s in the Clerk of
Court’s file, considering the arguments presented by counsel, and applying
the required standard of review, the School Board's decision is affirmed.”

7.

The School Board Chair Stated: “We thank everyone for their participation in the
hearing and ask that you please excuse us now so we can begin our deliberation.
As I indicated at the beginning, the Board will deliberate in executive session at
the close of the summation. No votes will be taken in executive session. The
Board will vote in open session and announce its decision. Within 10 days a
written decision of the Board will be issued consistent with the Board’s
announced decision, the evidence presented, and applicable law.” Supplemental
Record on Appeal page 442 lines 14-25.

8.

Then a decision and judgment is rendered by the Circuit Court Judge.

We believe that the Court of Appeals panel applied a standard of review not
warranted by the facts and law in this case. In this regard we believe that it is
understandable that the Panel misconstrued and misapplied its application of Code
§59-25-480 and SCRCP 75 where the Court did not take the opportunity to discuss the
gaps in S.C, Code §59-25-480. Moreover, we also believe that the Circuit Court judge
was hamstrung by the misrepresentations of the District about whether the record in the
School District was complete and certified by the requisite agency official as
contemplated under S.C. Code §59-25-480 and Rule 75 SCRCP. We also believe that the
District’s legal counsel was confused and as such committed the logical fallacy of
8

equivocation by equating the Transcript of the Teacher Dismissal Hearing, which
transcript was certified by the court reporter, as the complete record on appeal before the
Circuit Court as of December 1, 2015.
Additionally, we respectfully believe that the Court of Appeals panel overlooked its
own precedent Tony v. Lee County School District, 419 S.C. 210, 797 S.E.2d 55 (Ct.
App. 2017,) as it related to termination of Brown’s contract under the substantial evidence
standard of proof.

ARGUMENT I
Did the Court of Appeals err by failing to rule that Cherokee County School District
Violated the Mandatory Commands of S.C. Code §59-25-480 And SCRCP 75 by Not Filing
A Record Certified by The Chief Official of The School Board of Trustees Within 30 Days
After Brown the Petitioner Filed Her Notice of Intent to Appeal?

CONCLUSION
A School District Violates the Mandatory Commands of S.C. Code §59-25-480 And
SCRCP 75 by Not Filing A Record Certified by The Chief Official of The School Board of
Trustees Within 30 Days After Brown, the Petitioner, Filed Her Notice of Intent to Appeal.

The Court of Appeals appears to have overlooked the relationship between S.C. Code
§59-25-480 and SCRCP 75. From precedent it appears that both should be read together. S.C.
Code §59-25-480 provides:
(A) The decision of the district board of trustees is final, unless within thirty
days afterward an appeal is made to the court of common pleas of any county

in which the major portion of such district lies.
(B) Notice of the appeal and the grounds thereof shall be filed with the
district board of trustees. The district board shall, within thirty days
thereafter, file a certified copy of the transcript record with the clerk of such
court. An appeal from the order of the circuit court shall be taken in the
9

manner provided by the South Carolina Appellate Court Rules. If the decision
of the board is reversed on appeal, on a motion of either party the trial court
shall order reinstatement and shall determine the amount for which the
board shall be liable for actual damages and court costs. In no event shall any
liability extend beyond two years from the effective date of dismissal.
Amounts earned or amounts earnable with reasonable diligence by the
person wrongfully suspended shall be deducted from any back pay.

SCRCP 75 provides in part:
Appeals to the circuit court shall be made upon the original record in the lower court or
administrative agency or tribunal. Upon filing of notice of appeal in an action the original record
shall be certified by the clerk of the inferior court or administrative agency or tribunal.
The general proposition under the APA § 1-23-380 is that a party who has exhausted all
administrative remedies available within the agency and who is aggrieved by a final decision in a
contested case is entitled to judicial review pursuant to this article and Article 1. Judge Geathers
goes on to state that all the courts have applied APA standards to certain school board
administrative decisions. See Brown v. James, 389 S.C. 41, 697 S.E.2d 604 (2010).
In the context of school district terminations of teachers, the school district is looked
upon as an agency as defined in the Administrative Procedures Act. See Brown v. James, 389
S.C. 41, 697 S.E.2d 604 (2010), also see McWhirter v. Cherokee County School District 1, 274
S.C. 66,261 S.E.2d 157 (1979). "The observance of procedural requirements of the Employment
and Dismissal Act is mandatory and not a matter for discretion." Brown v. James, 389 S.C. 41,
697 S.E.2d 604 (Court of Appeals 2010).

In Brown v. James, the school district prevented Brown from having a due process
hearing. Brown v. James supra. It is noteworthy to state that this is the same Sharon Brown that
is presently before the court.

10

Here, Brown exhausted her administrative remedies. The district in turn was duty bound
to strictly comply with South Carolina Code § 59-25-480 which by its own admission, the
district did not do. See Brown v. James supra.
The Court of Appeals panel misconstrued and misapplied an erroneous standard of proof
in its finding that there was substantial evidence that the trial transcript was filed. The Panel did
not properly apply South Carolina Code § 59-25-480 and Rule 75 SCRCP.
Respectfully, the District did not submit the entire record below. The way the process
should have worked is as follows:

1.

Brown files notice of appeal with circuit court and district.

2.

District has 30 days to have an official of the District sign a certified Record of all
the proceedings and documents below.

3.

District then must transmit this Certified Record to the Cherokee County Clerk of
Court’s Office for filing.

4.

District’s transmittal must be more than the just the record of the hearing below
but must include any relevant Certified orders of the District and the certified vote
of the District Board of Trustees.

5.

The Appellant then has a due process hearing before the Circuit Court applying
the substantial evidence standard of proof.

6.

Then a decision and judgment is rendered by the Circuit Court Judge.

What was not done in this case:
7.

The District never presented a certified record from the School District signed by
an official as mandated by Rule 75 SCRCP or S.C. Code 59-25-480.

8.

The transcript of the hearing below was certified by the Court reporter and not by
an agency official.

9.

A certified order was not filed with the Clerk of Court’s Office within 30 days of
filing of an appeal by Brown with the Circuit Court;

11

10.

The vote of the Board of Trustees ratifying Brown’s termination was not certified
within thirty days to the Clerk of Court of Cherokee County as required by
SCRCP 75 and S.C. Code 59-25-480.
Since the School District transmitted what we say is a defective and incomplete

non-certified “record” to the Circuit Court, the Circuit Court judge could not properly
consider and apply the substantial evidence standard of proof without running afoul of
both due process and equal protection clauses of both the South Carolina Constitution,
the Federal Constitution and mandatory State Statutes, such as 59-25-480 and Rule 75 of
SCRCP. The Statutory provisions of the Act governing teacher dismissals are mandatory
on all parties.
Since S.C. Code §59-25-480 only deals with part of the transmittal process. It is clear
that the Rule 75 fills in the gaps and list the administrative agency's clerk, then if no agency
clerk, then some other top official as being charged with certifying the transmittal of the
record from the School board of trustees to the Circuit Court Clerk. Here legal Counsel for
the School Board of Trustees of Cherokee County gives the impression from her December
1,2015 letter that she filed a certified transcript. This hearing transcript was certified by
the Court Reporter. However, Ms. White has not identified any school board official who
signed off and certified the record that was ultimately transmitted to the Clerk of Court of
Cherokee County. Not having done this, due diligence renders the “Record' before the
Circuit Judge defective and a nullity in terms as to what was ordered in the way of
termination of Brown since no valid order existed before the Circuit Judge.
Filing a defective uncertified record does not excuse the District from filing a
certified record.

12

Additionally, the District's legal counsel's letter to the Court of Appeals dated
November 22, 2017, the School Board's counsel states that she filed the Transcript of
record on December 3, 2015 which is a different date than what she represented in her
letter dated December 1, 2015. Additionally, the School Board claims that the only record
they submitted to the Cherokee County Clerk of Court was the Transcript of the Hearing
below that was typed by the court reporter. This is significant because Judge Hayes only
considered the following:
“After reviewing the transcript of the School board’s hearing and the exhibits
presented as a part of the hearing's record, reviewing the pleadings and briefs in the Clerk
of Court’s file, considering the arguments presented by counsel, and applying the required
standard of review, the School Board's decision is affirmed." R. p. 2.
As has been adverted to Rule 75, states in pertinent part, appeals to the Circuit Court shall
be made upon the original record in the lower court or administrative agency or tribunal. Upon
filing of notice of appeal in an action, the original record shall be certified by the clerk of the
inferior court, or administrative agency or tribunal and transmitted within 30 days to the clerk of
court to which the appeal is taken. If the lower court, agency or tribunal has no clerk, then the
original record shall be certified and transmitted by the judge or chief official of the lower court.
agency or tribunal. (Emphasis added!.
In this case, we have not been provided with the name of the person who properly
certified the record from the School Board of Trustees of Cherokee County to be transmitted to
the Cherokee County Clerk of Court within the thirty (30) requirement under both the Statute
and the Rule 75. Moreover, the Court reporter does not appear to be listed in either S.C. Code

§59-25-480 or Rule 75 of the SCRCP.
Respectfully, the Panel's finding that the District “ .. .has provided substantial evidence
that it did file a transcript of the board hearing” with respect to the mandatory certification is
13

questionable with regard to the confused dates on the District about when the transcript of the
hearing was filed and a lack of a named certifying official of the Record before Judge Hayes.
Also, the Panel’s reasoning does not comport with the plain language of either the Statute of S.C.
Code 59-25-480 or Rule 75 SCRCP.
Additionally, the Court of Appeals appears to be confused about the issue as to who
certifies the record below and what is to be included in the record. Clearly, the transcript and the
exhibits from the Court reporter were insufficient. It follows that the School District had the
burden to provide the lower court judge with the decision and order of the School District within
the 30 days contemplated by both the Statute of S.C. Code §59-25-480 and Rule 75 of the
SCRCP.
It is axiomatic that Brown’s due process rights were violated by this oversight by the
Court of Appeals which is understandable due to the misrepresentations made by the District to
the Clerk of Court, Brown’s legal Counsel and the Court of Appeals concerning the certification
issue and the District’s mischaracterization of what it filed or didn’t filed in the Cherokee County
Clerk of Court’s Office.
To reiterate, from the record below, it does not appear that the school boarcl and/or its
agents, servants and/or employees complied with Rule 75 of the South Carolina Rules of Civil
Procedure because it does not appear that the record below was certified to the circuit court by
the administrative agency itself. And it does not appear, we believe, that Ms. White on behalf of
the school district has submitted a certified record to the circuit court. If so, then please show us
who signed and where it has been submitted.
Clearly then, the Cherokee County School District did not comply with 59-25-480 and/or
Rule 75 of the South Carolina Rules of Civil Procedure. It is stated in Vansant v. Smith that
Rule 74 and 75 make uniform the procedure on appeals to the circuit court where there is no
14

provision by statute or do not replace any provision in Title 18 relating to such appeals in other
statutes. Clearly, Rule 75 must be read with 59-25-480 in order to deal with the issue of
transmittal of the record below.
In its Brief, the District states that "The District has presented evidence to this Court that
it filed the transcript. In its return filed with this Court on November 27, 2017, the District
responded to Appellant’s designation of matters to be included in the record on appeal to ask the
Court of Appeals to include a transcript of the teacher dismissal hearing. In that return, the
District included as Exhibit A its counsel's letter to the Honorable Brandy McBee, Cherokee
County Clerk of Court, dated December 1,2015, "enclosed for filing the transcript of Brown’s
teacher’s dismissal hearing in accordance with the requirements of South Carolina Code
Annotated § 59-25-480." Brown's counsel was copied on the December 1, 2015 letter. In that
return the district states, "As further evidence the District filed a transcript, and that it was
received by the lower court, Circuit Court Judge J. Mark Hayes cites to the transcript in his
order upholding the Board's decision, demonstrating that the transcript was in fact filed. Had the
transcript not been filed, Judge Hayes could not have reviewed it." The District also states,
assuming arguendo that the clerk of court did not receive the transcript, the appropriate relief is
not Brown's reinstatement. Once Brown was informed, through her counsel's discussion with the
Cherokee County Court of Common Pleas' clerk on October 30, 2017, that the clerk had not
received the transcript, Brown was on notice that there was a possible question over the filing of
the transcript. As such, Brown should have remedied the matter by pursuing the appropriate writ
ofmandamus, which she did not do.”

Please note in the Transcript of the Teacher Dismissal Hearing there was no order filed
with it. Look at Supplemental Record p. 442.
The District cited Joyner v. Glimcher Properties, 356 S.C. 460, 463, 589 S.E.2d 762, 765
(Ct. of App. 2002).
This argument is without merit. Why? Because the District’s legal Counsel allegedly
transmitted an uncertified and incomplete record to the Clerk of Court of Cherokee County. This
is distinguishable from the procedure in the magistrates Court’s where the Magistrate is
15

mandated to file a return where neither the Solicitor or Criminally Accused are employees
charged with transmittal of the Return form the Magistrate to the Court of Common Pleas versus
the Clerk of Court’s Office. Here, White claims in two different letters that she transmitted the
transcript of the Teacher Dismissal Hearing and its exhibits to the Clerk of Court. On page 442
Lines 14-25 Transcript sets forth what the Chairperson of the Board States:

“We thank everyone for their participation in the hearing and ask that you please excuse
us now so we can begin our deliberation. As I indicated at the beginning, the Board will
deliberate in executive session at the close of the summation. No votes will be taken in executive
session. The Board will vote in open session and announce its decision. Within 10 days a written
decision of the Board will be issued consistent with the Board’s announced decision, the
evidence presented, and applicable law.” Supplemental Record on Appeal page 442 lines 1425.
What Judge Hayes states he considered in rendering his decision:
“After reviewing the transcript of the School Board’s hearing and the exhibits
presented as a part of the hearings record, reviewing the pleadings and briefs in the Clerk of
Court’s file, considering the arguments presented by Counsel, and applying the required standard
of review, the Board’s decision is affirmed.” R.. p. 2.
So where is the Certified decision of the Board of Trustees and its vote other than the
exhibits that were filed by Brown?

There is no decision that was timely filed by White as legal

counsel that Brown had in fact been fired. The District had a right to certify any aspect it
considered to be its record. No such duty fell upon Brown to have a writ issued to force the
District to protect its own decision before the Circuit Judge.
The Panel cannot relax the rules to suit the District’s failure to comply with the clear
commands of the Employment and Dismissal Act S.C. Ann.§ 59-25-410, 59-25-480.
CONCLUSION
Since the District chose what record to submit and that record being defective on its face,
reversal of the Circuit Judge and School Board’s decision is mandated because it is impossible to
apply the substantial evidence standard of proof to the facts in the Transcript of the hearing
16

without a certified decision from the District and as such the lower court's decision should be
reversed and Brown must be reinstated to her former teaching position.

ARGUMENT IA
Did the court of appeals unlawfully engage in "substantial inquiry" into whether
the respondent district had substantial evidence to terminate appellant as a teacher given
the fact that the respondent school district failed to submit to the circuit court clerk of
court's office a certified record from the school district signed by an official of the school
district as mandated by rule 75 SCRCP or S.C. Code §59-25-480?
Rule 75 SCRCP and S.C. Code§59-25-480 statutory language present a procedural
"prerequisite to the pursuit for judicial review." It is clear from the language in Rule 75 SCRCP
and S.C. Code § 59-25-480 that appellant Brown could not lawfully obtain judicial review
without the filing of a complete certified record signed by an official of the administrative
agency (Cherokee County School District). Cherokee County School District itself did not
authenticate any record.
Here because Cherokee County School District Board of Trustees did not file the agency
certified record as anticipated by rule 75 SCRCP and S.C. Code § 59-25-480 Brown termination
should have been ruled null and void.

ARGUMENT IB
Did the Court of Appeals err in failing to rule that a prerequisite to the pursuit of a
teachers request for judicial review of her termination by the circuit court includes the
filing by the agency of a complete certified record signed by an official of the agency?

17

Rule 75 SCRCP and S.C. Code §59-25-480 mandates the filing by the agency of a.
complete agency certified record.
ARGUMENT IC
Did the Court of Appeals err in failing to rule that all levels of state court lack the
authority to authorize an extension to file an agency record certified by an agency official if
the agency (respondent district) did not request an extension before the 30 day period to
file record expired?
Rule 75 SCRCP and S.C. Code §59-25-480 statute is clear in placing the responsibility
on the administrative agency to file the agency record timely, and that any request for an
extension of time must be made within the statutory time period. Given that Cherokee County
School District failed to file for an extension to prepare and certify the record on appeal, Brown
could not lawfully have her teacher termination judicially reviewed to see if there was substantial
evidence to terminate her employment. As a result Brown should have been reinstated to her
teaching position with Cherokee County School District.
ARGUMENT ID
Did the Court of Appeals err in not ruling that an agency's (school district's) failure
to file a complete and official certified transcript of record in a teacher termination appeal
is tantamount to no transcript at all having been filed by the school district?
Failure of the Cherokee County School District to submit a certified official record
signed by an agency official to authenticate the record and to confirm that the record contains
true and correct copies of the complete record should have been considered a fatal error by the
Court of Appeals panel. Brown's due process rights were violated. Brown's termination should
have been reversed.

18

ARGUMENT II
Did the Court Err in Ruling That Brown Was Unfit to Teach Due to Dishonesty
During the Investigation into An Alleged Assault of a Minor School Aged Child Where
Brown Is Alleged to Have Failed to Comply with A Directive of Her Superior?

This Court states:
“Because one ground for Brown’s termination-dishonesty-was supported by .
substantial evidence, the Circuit Court did not err in affirming the Board’s finding that
Brown was unfit to teach pursuant to 59-25-430.”

We believe that the court of appeals overlooked and/or misapprehended its prior
precedent as set forth in the case of Tony v. Lee County School District, 419 S.C. 210, 797
S.E.2d 55 (Ct. App. 2017/ It appears to be a dear equal protection and due process oversight.
In Tony, a determination by the Lee County School District was made to terminate a
teacher from employment for disobeying a directive not to have contact with any employees of
the school district and for a lack of candor during the course of an investigation into that
teacher's alleged misconduct and/or unfitness to teach. The court of appeals in that case affirmed
the decision of the circuit court judge and held that the lack of candor and the failure to follow
the directives of the superintendent did not rise to the level which warranted termination as set
forth by the school board in its determination on the substantial evidence standard of proof. See
Hall v. Board of Trustee, 330 S.C. 420,499 S.E. 2d 216 (Ct. App. 1998).
It is noteworthy that both Judge Lockemy and Judge Konduros participated in the Tony
decision as these said two judges participated on the panel of the above-referenced matter now
before it. I suppose a lack of candor means “dishonesty.” If that be the case, maybe Tony
19

deserved to be fired for unfitness. But we know from the decision that was not the result in
where the court recognized that in some ways Tony acted in several ways unprofessional.
There appears to be a conflict and/or an overlooking of the precedent of its own court by
the Court of Appeals.

ARGUMENT HI
Did the Court of Appeals err by failing to rule that S.C. Code Section 59-25-430
dishonesty provision is void for vagueness and is violative of due process.
The Court of Appeals states in its order that it is questionable whether substantial
evidence existed that Brown actually engaged in inappropriate interactions with Student J. Even
though Brown was lied on by individuals of Cherokee County School District, these individuals
that lied on Brown are still employed with the school district.
The Court of Appeals overlooked precedent that 59-25-430's dishonesty provision
is void for vagueness and violation of Due Process both substantive and procedural due to its
over-breath. Thus this portion of the statute is unconstitutional. See State v. Legg, 416 S.C. 9,
785 S.E. 2d 369 (2016); Town of Mt. Pleasant v. Chimento 401 S.C. 522,737 S.E. 2d 830
(2012).

CONCLUSION
This prejudice the Petitioner in so many ways. As such, Petitioner requests that the
Circuit Court and the Court of Appeal's decision be reversed and that Brown be ordered
reinstated to her job as a school teacher. A job she is well qualified to serve in.

20

MfMT

. SMITH, JR.
Attomewfor Plaintiff
South'Carolina State Bar No. 5165
P.O. Box 10496, F.S.
Greenville, SC 29601
Office: (864) 232-6541
Facsimile: (864) 232-6756
Email: fhsmith@bellsouth.net

Greenville, South Carolina
Dated: Saturday, June 13, 2020

21

E: Petitioner's reply to
Respondent's Return to
Petitioner's Petition for a

Writ of Certiorari, Filed on
Aug. 3, 2020

RECEIVED
THE STATE OF SOUTH CAROLINA
In The Supreme Court
APPEAL FROM CHEROKEE COUNTY
Court of Common Pleas

AUS 03 2020
S.C. SUPREME COURT

J. Mark Hayes Jr., Circuit Court Judge

Docket Case No. 2015-CP-11-0828
Appellate Case No. 2020-000919
Unpublished Opinion No. 2020-UP-013

Petitioner,

Sharon Brown,

vs.
Respondent.

Cherokee County School District,

PETITIONER’S REPLY TO RESPONDENT'S RETURN TO PETITIONER'S
PETITION FOR A WRIT OF CERTIORARI

FLETCHER N. SMITH JR. (S.C. Bar # 005165)
P.O. Box 10496, F.S.
Greenville, South Carolina 29603
(864)232-6541
(864)232-6756 Fax
fnsmith@bellsouth.net
ATTORNEY FOR PETITIONER
Other Counsel of Record:
ANDREA E. WHITE (S.C. Bar #11891)
White & Story, LLC
P.O. Box 7036
Columbia, S.C. 29202

(803)814-0993
(803)814-1183 Fax
ATTORNEY FOR RESPONDENT

1

INDEX
Certificate of Counsel.

3

Table of Authorities

4

Arguments in Reply..................................................................................................
1. Application of Rule 75, SCRCP is correctly applied by petitioner Brown
2. Court of Appeals violated its own precedent

5-7

8

Conclusion.

2

CERTIFICATE OF COUNSEL

Counsel for petitioner certifies that Petitioner's Reply to Respondent's Return to
Petitioner's Petition for a Writ of Certiorari complies with Rule 240c, SCRCP.

f:

iRN. SMITH, JR.
1orneyfor Plaintiff
South Carolina State Bar No. 5165
P.O. Box 10496, F.S.
Greenville, SC 29601
Office: (864) 232-6541
Facsimile: (864) 232-6756
Email: fiismith@bellsouth.net

Greenville, South Carolina

3'

TABLE OF AUTHORITIES
Page(s)

Cases:
Brown vs. William B. James, Superintendent for Cherokee County School District,
389 S.C. 41, 697 S.E.2d 604 (Ct. App. 2010)...........................................................

.5

Hall vs. The Board of Trustees of Sumter County School District No. 2,
330 S.C. 402, 499 S.E.2d216................................................................

,7

McWhirter vs. Cherokee County School District 1,
274 S.C. 66, 261 S.E. 2d 157 (1979)......................

5

State vs. James A. Brown Sr.,
Opinion No. 3304, Ct. of App. 2001

5

Tony vs. Lee County School District,
419 S.C. 210, 797 S.E. 2d 55 (Ct. App. 2017).

1

Witizigvs. Witizig,
325 S.C. 363, 479 S.E. 2d 297 (Ct App. 1996),

5

Statutes:
S.C. Code Ann § 59-25-430

7

S.C. Code Ann § 59-25-480

6

APA§ 1-23-320,

6.

Rule(s):
5,6

Rule 75, SCRCP

3

Rule 240, SCACR.

4

ARGUMENTS IN REPLY
I. Application of Rule 75 SCRCP is correctly applied by Petitioner Brown
Respondent District claims that Rule 75, SCRCP, does not govern appeals of a teacher
termination by a school board when in fact it does. Respondent district failed to file a complete
transcript record certified by a district official and failed to transmit a certified transcript record
by an official of the Respondent District to the Circuit Court pursuant to Rule 75. Further,
Petitioner's (Brown's) teacher appeal reached the Circuit Court (Court of Common Pleas) as a
civil case that was noncriminal. Therefore Rule 75 applies to petitioner's case. Further, it is to be
noted that S.C. Code §59-25-480 does not provide the form of the transcript of record nor does it
provide how the certified record shall be transmitted, so Rule 75 applies to the form of the record
and how it should be transmitted to the Circuit Court in this particular case. See State vs. James
A. Brown Sr., Opinion No. 3304, SC Court of Appeals, 2001, Sr.; See Witzigvs. Witzig, 325 S.C.
363,479 S.E. 2d 297 (Ct. App. 1996).
Rule 75 was added by the South Carolina legislature to supply omissions in statutes
were no provision is made for the time to file notice of intention to appeal, the form of the record
on appeal, and how it shall be transmitted.
Additionally, in McWhirter vs. Cherokee County School District No. 1, 274 S.C. 66, 261
S.E. 2d 157 (1979) our Supreme Court referred to the actions of a local school board in language
that indicates that the board is held to the standards of an "agency" as defined in the APA. See
Brown vs. William B. James, Superintendentfor Cherokee County School District, 389 S.C. 41,
697 S.E.2d 604 (Ct. App. 2010).

5

S.C. Code of Laws Title 1 Chapter 23 Section 1-23-320 (G), states that the record in a
contested case must include the following:
(1.) all pleadings, motions, intermediate rulings, and depositions;
(2.) evidence received or considered;
(3.) a statement of matters officially noticed;
(4.) questions and offers of proof, objections, and rulings on the contested case;
(5.) proposed findings and exceptions
(6.) any decision, opinion, or report by the officer presiding at the hearing.

Respondent District blatantly failed to submit a complete certified record to the Circuit
Court (Court of Common Pleas) as well as failed to transmit a certified record to the Circuit
Court signed by an agency official. Rule 75 and S.C. Code Ann 59-25-480 mandates are clear. A
timely filed complete transcript record was not filed in this teacher dismissal case. The
Respondent District was responsible for preparing and submitting a complete certified transcript
record to the Circuit Court, which it failed to do. Therefore Brown could not legally obtain
judicial review without the filing of a complete certified record that is transmitted to the Circuit
Court by a District official.
Here because Respondent District did not file an official certified transcript record as
anticipated, the trial court and The Court of Appeals should have reinstated Brown to her
teaching position. The Respondent District failed to seek an extension under Rule 75 before their
30 days expired to file the record.

6

II. Court of Appeals violated its own precedent
The Respondent District states, "In her Petition, Brown asserts the Court of Appeals
;

"overlooked and/or misapprehended" the precedent the Court of Appeals established in the cases
of Toney v. Lee Cty. Sch Dist, 419 S.C. 210, 797 S.E. 2d 55 (Ct. App 2017) and Hall v. Sumter
Sch. Dis. 2, 330 S.C. 402, 499 S.E. 2d 216 (Ct. App. 1998). These decisions hold that, under the
specific facts of each respective case, dishonesty and failure to follow the directives of a
supervisor did not rise to the level of manifesting an evident unfitness for teaching in accordance
with the requirements of S.C. Code Ann. §59-25-430." In a footnote the respondent District
states, "Even if Brown had raised this argument in her appeal to the Court of Appeals, her
reliance on these cases is misplaced. Unlike the teachers in Hall and Toney, Brown's dishonesty
and failure to follow the directives of the Superintendent interfered with the District's
investigation into her conduct, as noted in the Circuit Count's Order."
Brown contends that Ms. Toney was charged and found guilty of dishonesty in the Toney
vs. Lee County case. However, the Court of appeals reinstated her to her teacher position. The
Court of Appeals did not give any explanation in their decision on why they reinstated Toney to
her teacher position after having been found guilty of dishonesty.
Once a case is decided, it establishes a precedent, or a judicial decision that should be
followed when a similar case comes to court. It is important to note that Brown was terminated
in 2015 by the Respondent District and the Toney case was decided by the Court of Appeals in
2017. Therefore, the Court of Appeals should have reinstated Brown to her teaching position
based on its precedent in the Toney case.

7

CONCLUSION
This prejudice the Petitioner in so many ways. As such, Petitioner requests that the
Circuit Court and the Court of Appeal's decision be reversed and that Brown be ordered
reinstated to her job as a school teacher. A job she is well qualified to serve in.

;rn. SMITH, JR.
FEE’
Attorneyfor Plaintiff
South Carolina State Bar No. 5165
P.O. Box 10496, F.S.
Greenville, SC 29601
Office: (864) 232-6541
Facsimile: (864) 232-6756
Email: fhsmith@bellsouth.net

Greenville, South Carolina
Dated: July 29, 2020

8

7/30/2020

SC Judicial Branch

RULE 75
RECORD ON APPEAL TO THE CIRCUIT COURT: TRANSMITTAL
Appeals to the circuit court shall be made upon the original record in the lower court or administrative
agency or tribunal. Upon filing of notice of appeal in an action the original record shall be certified by
the clerk of the inferior court or administrative agency or tribunal and transmitted within thirty (30) days
to the clerk of the court to which the appeal is taken. If the lower court, agency or tribunal has no clerk,
then the original record shall be certified and transmitted by the judge or chief official of the lower court,
agency or tribunal. Upon motion for good cause shown, the court may extend the time for the lower
court, agency or tribunal to prepare and certify the record. Upon receipt of the certified record, the clerk
of the circuit court shall give notice in writing to the parties that the record has been filed.

Note:
These Rules 74 and 75 are added to make uniform the procedure on appeals
to the Circuit Court where there is no provision by statute. They do not replace
any provisions as to such appeals in Title 18 of the Code, or other statutes
providing for appeals from administrative decisions; but are added to supply
omissions in these statutes where no provision is made for the time to file
notice of intention to appeal, the form of the record on appeal, or how, it shall
be transmitted.
Note to 1986 Amendment:
This amendment requires the record to be certified to the circuit court within
thirty days, and provides that the court may grant additional time for good
cause shown.

httns://www.scraiirts.ora/conrtrfio/disnlavRule.cfnV?nilfilD=7S.nAsijhRiilftin=&ruleTvoft=CIV

1/1

APPENDIX F: The
Supreme Court of South
Carolina Order filed on
May 28, 2021

tKfje Supreme Court of ^>outI) Carolina
Sharon Brown, Petitioner,
v.
Cherokee County School District, Respondent.
Appellate Case No. 2020-000919

ORDER

Based on the vote of the Court, the petition for a writ of certiorari is denied.

FOR THE COURT
BY
CLERK

Columbia, South Carolina
May 28, 2021

cc: Fletcher N. Smith, Jr., Esquire
Andrea Eaton White, Esquire
The Honorable Jenny Abbott Kitchings

APPENDIX G: Letter from
Respondent to SC Court of
Appeals filed by Ct on Nov.
27, 2017

VvC WHITE & STORY*

Andrea E. White
Ashley C. Story
Brittany M. Lozanne
Imani N. Newborn

ATTORNEYS

AT

LAW

3614 Landmark Dr. Ste. EF
P.O. Box 7036 (29202)
Columbia, SC 29204
Tel: 803.814.0993
Fax: 803.814.1183
www.sodacitylaw.cwn

November 22,2017
VIA HAND-DELIVERY
The Honorable Jenny Abbot Kitchings
Clerk of Court
South Carolina Court of Appeals
1220 Senate Street
Columbia, SC 29201
Re:

Sharon Brown v. Cherokee Countv School District
C.A. No. 2015-CP-l 1-0828
Appellate Case No. 2017-001466

Dear Ms. Kitchings:
Enclosed for filing please find a certified original Transcript Record of the proceedings before
Respondent Cherokee County School District Board of Trustees regarding the above-referenced matter.
This Transcript was originally filed with the Cherokee County Circuit Court on December 3, 2015, but
apparently was lost or otherwise destroyed.
Please be aware that we were advised by the Court Reporter, Judy Urso, that she does not maintain
the original exhibits; therefore, we have enclosed copies of those exhibits that were introduced during the
hearing and which are referenced in the Transcript.
As always, should you have any questions please feel free to contact our office.
Thank you for your assistance in this matter.
With kind regards, I remain
Sincerely,

Mendy M. Young
\J
V
Litigation Paralegal to Andrea E. White
& Brittany M. Lozafme
/mmy
Enclosures
cc:

The Honorable Mark J. Hayes, II (w/o enclosures)
The Honorable Brandy W. McBee (w/o enclosures)
Fletcher N. Smith, Esquire (w/o enclosures)

